APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Elijah Hasan Jones, No. 18-15210
(11th Cir. October 8, 2020) ......................................................................................... A-1

A-1

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

The Court of Appeals reviews for plain error
issues raised for the first time on appeal.

977 F.3d 1077
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
James INNOCENT, Defendant-Appellant.
United States of America, Plaintiff-Appellee,
v.
Elijah Hasan Jones, Defendant-Appellant.

1 Cases that cite this headnote
[2]

Necessity of Objections in

The Court of Appeals may reverse an error
that was plain and that affects the defendant's
substantial rights, provided it also seriously
affects the fairness, integrity, or public reputation
of judicial proceedings.

No. 19-10112, No. 18-15210
|
(October 8, 2020)
Synopsis
Background: Two defendants were convicted in the United
States District Court for the Southern District of Florida, No.
0:18-cr-60224-KMM-1, K. Michael Moore, Chief Judge, and
No. 1:18-cr-20319-KMW-1, Patricia A. Seitz, Senior District
Judge, of possessing firearms as felons, and one defendant
received 15-year mandatory minimum sentence under Armed
Career Criminal Act (ACCA). Defendants appealed.

Criminal Law
General

2 Cases that cite this headnote
[3]

Criminal Law
General

Necessity of Objections in

An error is “plain error,” as required for reversal
on plain error review, if it is clear or obvious, that
is, if the explicit language of a statute or rule, or
precedent from the Supreme Court or the Court
of Appeals, directly resolves the issue.
5 Cases that cite this headnote

Holdings: The Court of Appeals, William H. Pryor, Chief
Judge, held that:

[4]

[5]

[6]

Necessity of Objections in

Criminal Law
Error committed or invited
by party complaining in general
If a party invited the error, the Court of Appeals
may not review it on appeal.

West Headnotes (13)
Criminal Law
General

Burden of showing error

1 Cases that cite this headnote

Procedural Posture(s): Appellate Review.

[1]

Criminal Law

On plain error review, the defendant bears the
burden of proving that he had a reasonable
probability of a different result absent the error.

[3] defendant sentenced under ACCA invited the alleged error
regarding a prior conviction allegedly not qualifying as a
violent felony.
Affirmed.

Necessity of Objections in

When reviewing for plain error, the Court of
Appeals evaluates the entire record, including
evidence the jury did not hear.

[1] first defendant's substantial rights were not affected
by plain error arising from indictment's failure to allege
defendant's knowledge of his felon status;
[2] same plain error did not substantially affect second
defendant's substantial rights; and

Criminal Law
General

[7]

Criminal Law
of accusation

Requisites and sufficiency

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

Error was plain, as to failure of defendants'
indictments, for possessing firearms as felons, to
include knowledge of felon status, as element of
the charged offense.
(1),

that his substantial rights were affected, as
required for reversal on plain error review.
3 Cases that cite this headnote

18 U.S.C.A. §§ 922(g)

924(a)(2).

[11]

2 Cases that cite this headnote
[8]

Criminal Law
of accusation

Requisites and sufficiency

18 U.S.C.A. §§ 922(g)(1),

924(a)

police approaching.
(1),

Criminal Law

Burden of showing error

Criminal Law
Error; Burden

Presumption as to Effect of

[12]

Criminal Law
General

Sentencing and Punishment
Violent or
Nonviolent Character of Offense

against a person.
(i).

Necessity of Objections in

When a defendant has not presented any
evidence that the plain error affected the
outcome, he fails to meet his burden of showing

924(a)(2).

A court determines whether a defendant's prior
conviction qualifies as a violent felony under the
force clause of the Armed Career Criminal Act
(ACCA), for purposes of sentence enhancement,
not by looking at the facts of the crime the
defendant committed, but instead by assessing
the crime as a categorical matter, and under
this categorical approach, the court asks whether
the least culpable conduct encompassed by a
criminal statute necessarily involves the use,
attempted use, or threatened use of physical force

If the defendant preserved an error for appellate
review, the government bears the burden of
showing that the error was harmless, but on plain
error review, it is the defendant rather than the
government who bears the burden of persuasion
with respect to prejudice.

[10]

18 U.S.C.A. §§ 922(g)

4 Cases that cite this headnote

8 Cases that cite this headnote
[9]

Requisites and sufficiency

Defendant's substantial rights were not affected
by plain error arising from failure of indictment,
for possessing firearm as felon, to include
knowledge of felon status, as element of
charged offense, where circumstantial evidence
established defendant's knowledge of his status;
at scene of arrest defendant told an officer that
he was a felon, defendant had been convicted of
multiple felonies and had served many years in
prisons for those convictions, he had a previous
conviction for possessing firearm as felon, and
defendant had behaved in a way that suggested
he knew he was not allowed to possess a gun,
when he immediately dropped the gun into
someone else's car and left the scene when he saw

Defendant's substantial rights were not affected
by plain error arising from failure of indictment,
for possessing firearm as felon, to include
knowledge of felon status, as element of
charged offense, where circumstantial evidence
established defendant's knowledge of his status;
defendant had been convicted of four felonies
on three occasions, a defendant repeatedly
convicted of felonies was especially likely
to know he was a felon, and defendant's
low IQ score for competency evaluation
did not undermine confidence that he knew
his felon status, because low score was
qualified by comment that defendant had not
exerted adequate effort, and because defendant
completed high school on time and with average
grades.
(2).

Criminal Law
of accusation

18 U.S.C.A. § 924(e)(2)(B)

1 Cases that cite this headnote
[13]

Criminal Law
Error committed or invited
by party complaining in general

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

Defendant invited the alleged error, and thereby
waived appellate review, as to his prior Florida
conviction for aggravated assault with firearm
allegedly not qualifying as a violent felony
under the force clause of the Armed Career
Criminal Act (ACCA), for purposes of sentence
enhancement, where counsel explained that he
“wanted to” object to presentence report's (PSR)
conclusion that 15-year mandatory minimum
sentence under ACCA was applicable, but
counsel had been unable to find a legal
basis for filing an objection, and counsel
conceded that circuit precedent had held that the
Florida offense was a crime of violence under
analogous provision of Sentencing Guidelines.

U.S.C. § 922(g)(1). On direct appeal, each of them challenges
his indictment as defective for failing to allege he knew
he was a felon, as required by
Rehaif. Because neither
challenged his indictment before the district court, and neither
can establish that he did not know he was a felon, we
affirm both of their convictions. Jones additionally argues
that he should not have been sentenced under the Armed
Career Criminal Act. But he waived that challenge during his
sentencing hearing, and the district court did not plainly err
in any event.

I. BACKGROUND
Innocent and Jones both committed the crime of possessing a
firearm as a felon. The facts underlying their convictions are
*1080 different, but their appeals share common issues. We
describe each one in turn.

18 U.S.C.A. § 924(e)(2)(B)(i).

Attorneys and Law Firms

A. James Innocent

*1079 Phillip Drew DiRosa, U.S. Attorney's Office, Fort
Lauderdale, FL, H. Ron Davidson, U.S. Attorney's Office,
Nicole D. Mariani, Emily M. Smachetti, U.S. Attorney
Service - SFL, Miami, FL, for Plaintiff-Appellee.
Michael Caruso, Federal Public Defender, Robin J.
Farnsworth, Bernardo Lopez, Daryl Elliott Wilcox, Federal
Public Defender's Office, Fort Lauderdale, FL, for DefendantAppellant.
Appeals from the United States District Court for the
Southern District of Florida, D.C. Docket No. 0:18-cr-60224KMM-1, D.C. Docket No. 1:18-cr-20319-KMW-1
Before WILLIAM PRYOR, Chief Judge, TJOFLAT and
HULL, Circuit Judges.
Opinion
WILLIAM PRYOR, Chief Judge:
These appeals require us to decide whether to vacate the
convictions of two defendants whose indictments were
defective in the light of
Rehaif v. United States, ––– U.S.
––––, 139 S. Ct. 2191, 2194, 204 L.Ed.2d 594 (2019), and
if not, whether to vacate one defendant's sentence under the
Armed Career Criminal Act. Juries convicted Elijah Jones
and James Innocent of possessing firearms as felons.

18

On June 11, 2018, law enforcement officers arrived at James
Innocent's apartment in Pompano Beach, Florida, to evict
him. At the door, an officer noticed a bulge in Innocent's
right front pocket. A frisk revealed the bulge to be a grocery
bag containing about $2,300 in cash. Inside the apartment,
officers noticed a firearm next to a mattress in the room where
Innocent slept. They also noticed drugs in plain view. When
they searched the apartment, officers found a smorgasbord
of drugs: heroin, fentanyl, crack cocaine, methamphetamine,
Xanax, MDMA, and marijuana, along with digital scales,
body armor, and ammunition.
A grand jury indicted Innocent on counts of possessing
drugs with intent to distribute them,
21 U.S.C. § 841(a)
(1), possessing a firearm in furtherance of drug trafficking,
18 U.S.C. § 924(c)(1)(A)(i), and possessing a firearm as
a convicted felon, id. § 922(g)(1). But the indictment did not
allege that Innocent knew he was a felon when he possessed
the firearm or cite the provision for that element,
id. §
924(a)(2). And he did not challenge it on that basis before the
district court.
Before trial, a forensic psychologist confirmed that Innocent
was competent to be tried. Innocent's evaluation reflected a
low intelligence quotient score. It also detailed that Innocent

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

completed high school in special education classes, earned
average grades, and was never held back in school. And
it reported that Innocent “did not exert adequate effort on
cognitive tasks” during the evaluation.
At trial, Innocent stipulated that he had been convicted of
a felony offense before June 11, 2018. His four felony
convictions, stemming from three separate prosecutions,
were cocaine possession,

Fla. Stat. § 893.13(1)(a)(1),

§ 775.082(3)(d); cocaine and marijuana possession,
§ 893.13(1)(a)(1)–

(2),

id.

§ 775.082(3)(d)–(e); and two

convictions for possessing cocaine with intent to sell,
id.
§ 893.13(1)(a)(1). A jury convicted Innocent of all the counts
charged in the indictment, and the district court sentenced him
to 360 months of imprisonment.

B. Elijah Jones
On the evening of January 10, 2018, two police officers
patrolling the Little Haiti neighborhood of Miami spotted
Jones standing by a car's passenger-side window and speaking
to the driver. One officer executed a U-turn in his marked
vehicle to tell the driver he was displaying a parking permit
incorrectly. As the officer turned his car around, he saw
Jones look at the marked vehicle, pull a dark object from his
waistband, and toss it inside the car before walking away. On
arrival, the officers found a loaded gun on the car's passengerside floorboard. After detaining Jones and warning him of his
rights, see
Miranda v. Arizona, 384 U.S. 436, 444–45, 86
S.Ct. 1602, 16 L.Ed.2d 694 (1966), an officer asked Jones if
the firearm was his. Jones said it belonged to his girlfriend.
The officer then asked if the firearm was in Jones's possession.
Jones denied possessing the gun. Asked a second time, he
admitted to possessing the gun. The officer confirmed Jones
was a felon and arrested him.
A grand jury returned a single-count indictment charging
Jones with possessing a firearm as a felon,
18 U.S.C. §
922(g)(1). Like Innocent's indictment, Jones's indictment did
not allege Jones knew he was a felon or cite section 924(a)
(2). Like Innocent, Jones did not challenge the indictment on
that basis. Instead, he raises that challenge for the first time
on appeal.

*1081 Although Jones's trial did not focus on whether he
knew he was a felon, several moments bore on that issue.
During its opening statement, the government explained that,
“[a]s [Jones] saw [the two] police cars approach him, he
dropped the gun into the passenger side of that vehicle.
The defendant knew he was a convicted felon and knew
he couldn't possess a firearm or even a single round of
ammunition, but he had a loaded gun with 15 rounds of
ammunition.” The jury heard testimony that Jones told
the officers on the scene that he was a felon. Jones also
stipulated to being a felon. And during closing argument,
the government noted that Jones's decision to quickly discard
the gun when officers approached suggested that he knew he
was not allowed to possess it. Last, the government sought
permission to introduce evidence of Jones's previous Florida
felon-in-possession conviction, but the judge denied the
motion because the evidence would have been unnecessarily
prejudicial based on the other evidence of Jones's felon status.
The jury convicted Jones, and the district court sentenced him
to 180 months of imprisonment and four years of supervised
release based on the 15-year mandatory minimum imposed
by the Armed Career Criminal Act for defendants who have
previously committed at least three violent felonies or serious
drug crimes.

18 U.S.C. § 924(e). Jones had three such

convictions: one for aggravated assault with a firearm, Fla.
Stat. § 784.021; one for resisting an officer with violence, id.
§ 843.01; and one for selling drugs at a school, id. § 893.13(1)
(c).
During his sentencing hearing, Jones conceded that all three
convictions counted as qualifying offenses under the Act.
His attorney explained that he “wanted to” object to the
guideline calculation. Specifically, he said he “would have
loved to file” an objection arguing that Jones did “not
qualify as an armed career criminal.” But after he “researched
and researched and researched and researched,” he couldn't
find a ground to object to viewing “the aggravated assault
[with] a firearm [conviction] from 2000” as a violent felony.
“[T]he 11th Circuit,” he explained, “has found that aggravated
assault with a firearm, that's a crime of violence. So [he]
couldn't object to that.” He reaffirmed that he had “consulted
with other people in [his] office” and couldn't identify
“a good-faith basis to file any” objections. “And I think,
unfortunately,” he concluded, “it looks like the calculations
are correct that [Jones] does qualify. ... I don't like it. But I
couldn't file a legal objection[.]” At the end of the hearing,
when the judge asked if there were any objections to the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

sentence he had imposed, Jones reiterated, “[F]or sentencing
purposes, we don't have any objections to the sentencing.”

[1]

[2]

Federal law prohibits anyone “who has been convicted in
any court of[ ] a crime punishable by imprisonment for a

term exceeding one year” from possessing a firearm.
18
U.S.C. § 922(g)(1). Anyone who “knowingly violates” that
provision “shall be fined ..., imprisoned ..., or both.” Id. §
II. STANDARD OF REVIEW
924(a)(2). Until last year, we interpreted that language to
[3] [4] [5] [6] We review for plain error issues
mean that a defendant could be convicted if he knew he

raised for the first time on appeal.
United States v. Reed,
941 F.3d 1018, 1021 (11th Cir. 2019). We may reverse an
error that was plain and that affects the defendant's substantial
rights, provided it also seriously affects the fairness, integrity,
or public reputation of judicial proceedings. United States
v. Lejarde-Rada, 319 F.3d 1288, 1290 (11th Cir. 2003). An

possessed a firearm. See, e.g.,
United States v. Jackson,
120 F.3d 1226, 1229 (11th Cir. 1997). The Supreme Court

error is plain if it is “clear” or “obvious,”
United States v.
Olano, 507 U.S. 725, 734, 113 S.Ct. 1770, 123 L.Ed.2d 508
(1993)—that is, if “the explicit language of a statute or rule”
or “precedent from the Supreme Court or this Court directly

than a year to violate
2194.

resolv[es]” the issue,
United States v. Hesser, 800 F.3d
1310, 1325 (11th Cir. 2015) (quoting Lejarde-Rada, 319 F.3d
at 1291). We evaluate the entire record, including evidence
the jury did not hear, when reviewing for plain *1082
error.
Reed, 941 F.3d at 1021. The party challenging the
error bears the burden of proving that he had a “reasonable
probability of a different result” absent the error. Dell v.
United States, 710 F.3d 1267, 1276 (11th Cir. 2013) (internal
quotation marks omitted). If a party invited the error, we may
not review it on appeal. United States v. Love, 449 F.3d 1154,
1157 (11th Cir. 2006).

III. DISCUSSION
Innocent and Jones argue that we should vacate their
convictions in the light of the decision of the Supreme
Court in
Rehaif. Because neither defendant raised this
argument in the district court, we review for plain error. In
addition, Jones challenges his career criminal sentence on
the ground that one of the crimes the district court treated
as a crime of violence, aggravated assault with a firearm, is
not categorically a violent felony under the Armed Career
Criminal Act. We address the arguments in turn, and we reject
both.

A. Rehaif Does Not Entitle Innocent or Jones to Relief.

clarified in
Rehaif v. United States that a defendant must
know both that he possesses a firearm and that he has been
convicted of a crime punishable by imprisonment for more
section 922(g)(1).

139 S. Ct. at

After Rehaif, many defendants on direct appeal challenged
their indictments as defective because the indictments omitted
the previously unnecessary knowledge-of-status element.
Innocent and Jones are two such defendants. Neither
defendant challenged his indictment before the district court,
so we review for plain error.

Reed, 941 F.3d at 1021.

[7] As with other
Rehaif errors, the missing element
in Innocent's and Jones's indictments satisfies the first
two elements of the plain-error test. The indictments were
erroneous because they did not include an element of the
crime charged, knowledge of felon status.
Rehaif, 139 S.
Ct. at 2194, 2200. The error was plain because it is evident at
the time of appellate review.
Henderson v. United States,
568 U.S. 266, 277, 133 S.Ct. 1121, 185 L.Ed.2d 85 (2013);
Reed, 941 F.3d at 1021. But Innocent and Jones fail to
meet the third element of the plain-error test because the error
did not affect their substantial rights. Neither can satisfy his
burden of proving a reasonable probability that he would have
obtained a different result but for the error, Reed, 941 F.3d
at 1021, because circumstantial evidence establishes that each
knew of his felon status.
[8] We start with Innocent. He was convicted of four felonies
on three occasions. Most people convicted of a felony know
that they are felons. See
United States v. Miller, 954
F.3d 551, 559 (2d Cir. 2020). And someone who has been
convicted of felonies repeatedly is especially likely to know
he is a felon. See

Reed, 941 F.3d at 1021. Had the issue

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

been contested at trial, Innocent's four felony convictions
would have provided the government powerful evidence that
he knew he was a felon.
*1083 Innocent points to his low intelligence quotient score
as suggesting that he did not know he was a felon. But
the competence evaluation qualified the score by pointing
out that Innocent “did not exert adequate effort” during the
examination. And Innocent completed high school on time
and with average grades. Nor does the evaluation or any other
evidence in the record evidence that Innocent's intelligence
was impaired to the extent that he could not understand that
he was a felon. So Innocent's competence evaluation does not
undermine our confidence in the outcome.

felon-in-possession trial and maintained on several occasions
that he was allowed to possess a firearm.
United States
v. Russell, 957 F.3d 1249, 1253–54 (11th Cir. 2020). We
decided that Russell had shown a reasonable probability that
a jury could conclude he lacked the knowledge

Rehaif

requires.
Id. But Innocent, unlike Russell, can point to no
convincing reason to think he did not know of his prohibited
status despite being convicted of four felonies.
[11] Jones's argument has even less to commend it. Abundant
evidence reflects Jones's knowledge that he had been
convicted of a felony. Jones told an officer at the scene that he

was a felon. See
Reed, 941 F.3d at 1021–22. And he had
[9]
[10] When the record says little or nothing about previously been convicted of being a felon in possession of a
firearm, which is strong evidence he knew he was a felon. See,
the effect of the error, “the burden is the decisive factor.”
United States v. Rodriguez, 398 F.3d 1291, 1300 (11th Cir.
2005). If the defendant preserved the error, the government
bears the burden of showing that it was harmless.
Olano,
507 U.S. at 734, 113 S.Ct. 1770. But on plain-error review,
“[i]t is the defendant rather than the Government who bears
the burden of persuasion with respect to prejudice.”
Id.
When a defendant “has not presented any evidence that” the
error affected the outcome, he “fails to meet his burden under
the ... plain error test.” United States v. Taylor, 417 F.3d 1176,
1183 (11th Cir. 2005).
True, there is less evidence that Innocent knew he was a
felon than there is for some defendants in his shoes. For
example, we have previously held that serving more than a
year in prison provides circumstantial evidence of knowledge
of felon status.
Reed, 941 F.3d at 1022;
United States
v. Moore, 954 F.3d 1322, 1337–38 (11th Cir. 2020). Innocent
never served more than a year in prison for any of his
convictions, although he twice received a sentence of 364
days. But we have never suggested that that helpful fact is
essential. See
Parker v. Scrap Metal Processors, Inc., 386
F.3d 993, 1004 n.11 (11th Cir. 2004); Bryan A. Garner, et al.,
The Law of Judicial Precedent § 6, at 82 (2016). And the point
remains that Innocent, not the government, bears the burden
of proof on plain error review, and he cannot satisfy it.
Innocent's appeal falls short of the kind of record on which we
have granted the relief he seeks. We held that Oniel Russell
showed that a
Rehaif error affected his substantial rights
when he actively litigated his prohibited status during his

e.g.,
United States v. Hicks, 958 F.3d 399, 402 (5th Cir.
2020). Jones, as the government argued at trial, also behaved
in a way that suggested he knew he was not allowed to possess
a gun when he immediately dropped the gun into someone
else's car and left the scene when he saw police approaching.
See United States v. Singer, 963 F.3d 1144, 1159 (11th Cir.
2020);
United States v. Brandon, 965 F.3d 427, 433 (5th
Cir. 2020). Like Innocent, Jones also had been convicted
of multiple felonies. See
Reed, 941 F.3d at 1021. And
Jones served many years in prison for his previous *1084
convictions. See
38. So Jones's

id. at 1022;

Moore, 954 F.3d at 1337–

Rehaif argument fails.

To avoid the evidence they knew they were felons, Innocent
and Jones resist plain-error review in the first place. They
argue that indictment defects are always jurisdictional, so they
should receive de novo review. They alternatively argue that
the indictments failed to charge a federal offense because
they omitted an element or because they cited only section
922, which makes criminal firearm possession for felons,
without also citing section 924, which supplies the penalty
and element of mens rea. We have already rejected both of
those arguments.
Moore, 954 F.3d at 1332–37; United
States v. McLellan, 958 F.3d 1110, 1117–18 (11th Cir. 2020)
(following

Moore).

Innocent and Jones also argue that our decision in
United
States v. Lang, 732 F.3d 1246, 1249 (11th Cir. 2013),

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

compels us to vacate their convictions even if they cannot
show prejudice from their defective indictments, but we
disagree.
Lang vacated a conviction based on a defective
indictment without requiring a showing of prejudice because
the indictment affirmatively alleged non-criminal conduct,

United States v. Stitt, ––– U.S. ––––, 139 S. Ct. 399, 405,
202 L.Ed.2d 364 (2018). Under this “categorical approach,”
we ask whether the least culpable conduct encompassed by a
criminal statute necessarily involves the use, attempted use,
or threatened use of physical force against a person. See

id., while their indictments merely omitted an element. In
fact, far from requiring automatic reversal for all indictment

Moncrieffe v. Holder, 569 U.S. 184, 190–91, 133 S.Ct.
1678, 185 L.Ed.2d 727 (2013).

defects,
Lang prefaced its holding by acknowledging that
some indictment defects do require a showing of prejudice.
Id. (quoting United States v. Pena, 684 F.3d 1137, 1148 n.8
(11th Cir. 2012)).
Reed, not
Lang, controls. Innocent
and Jones must prove prejudice for this error.
Jones additionally argues that the strictures of plain-error
review should not apply because novelty excuses procedural
default.
Rehaif is novel, he says, because it overturned
circuit precedent that foreclosed the argument during Jones's
trial. But procedural default, a set of rules governing
applications for the writ of habeas corpus, is different from
plain-error review. And even if it was not,
Rehaif was
not “truly novel” in the sense necessary to excuse procedural
default. United States v. Bane, 948 F.3d 1290, 1296–97 (11th
Cir. 2020); see
McCarthan v. Dir. of Goodwill Indus.Suncoast, Inc., 851 F.3d 1076, 1087 (11th Cir. 2017) (en
banc).

B. The District Court Correctly Sentenced
Jones under the Armed Career Criminal Act.
[12] Jones next challenges his career criminal sentence. See

Jones argues that his 2000 Florida conviction for aggravated
assault with a firearm—which *1085 involved threatening
to kill a woman during an argument and then discharging
his gun into the air three times—was not a violent felony.
He maintains Florida courts permit aggravated assault
convictions on evidence proving only recklessness, and we
have held that felonies with a mens rea of recklessness are not
categorically violent felonies.
United States v. Palomino
Garcia, 606 F.3d 1317, 1334–36 (11th Cir. 2010).
[13] Jones waived this argument before the district court.
During Jones's sentencing hearing, his attorney explained
that he “wanted to” object to the presentence investigation
report's conclusion that the Act required a 15-year sentence,
and he “researched and researched and researched and
researched,” “consulted with other people in [his] office,” and
still “couldn't file a legal objection.” His counsel specifically
conceded that we have held “that aggravated assault with a
firearm, that's a crime of violence. So [he] couldn't object to
that.” And he conceded that “it looks like the calculations
are correct that [Jones] does qualify” for a sentence under
the Armed Career Criminal Act. The doctrine of invited error
prevents us from considering the arguments Jones expressly
disclaimed before the district court. Love, 449 F.3d at 1157.

18 U.S.C. § 924(e). The Armed Career Criminal Act
imposes a mandatory minimum sentence of fifteen years
of imprisonment for felons who possess firearms and have
three previous convictions for “a violent felony or a serious
drug offense, or both, committed on occasions different from

Jones argues he did not invite the error because he did not
stipulate to his sentence or act to cause the admission of
inadmissible evidence, “but simply failed to object.” But he
did more than “simply fail[ ] to object” when his explanation
of why he agreed with the presentence report filled three
pages of the sentencing hearing transcript.

one another.”
Id. § 924(e)(1). The Act defines a “violent
felony,” as relevant for this appeal, as “any crime punishable
by imprisonment for a term exceeding one year ... that[ ] has
as an element the use, attempted use, or threatened use of

Even if invited error did not apply, and even if Jones is right
that the district court erred, Jones at least failed to raise the
error before the district court, so plain error review applies.

physical force against the person of another.”
Id. § 924(e)
(2)(B). We decide whether a defendant's crime is a violent
felony not by looking at the facts of the crime he committed,
but instead by assessing the crime as a categorical matter.

United States v. Campbell, 473 F.3d 1345, 1347–48 (11th
Cir. 2007);
United States v. Jones, 899 F.2d 1097, 1102–
03 (11th Cir. 1990), overruled in part on other grounds,
United States v. Morrill, 984 F.2d 1136, 1137 (11th Cir.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Innocent, 977 F.3d 1077 (2020)
28 Fla. L. Weekly Fed. C 1986

1993) (en banc). The error is not plain. We have already held
that Florida aggravated assault is a crime of violence under
the Act.
Turner v. Warden Coleman FCI (Medium), 709
F.3d 1328, 1338 (11th Cir. 2013). Jones attempts to avoid
that holding on the ground that it conflicts with two of our
earlier decisions:
United States v. Palomino Garcia, 606
F.3d 1317, and United States v. Rosales-Bruno, 676 F.3d
1017 (11th Cir. 2012). He also argues that three intervening
Supreme Court decisions—

See Olano, 507 U.S. at 734, 113 S.Ct. 1770. No “precedent
from the Supreme Court or this Court,” or “explicit language
of a statute or rule,” “directly resolv[ed]” the issue in Jones's
favor.
Hesser, 800 F.3d at 1325 (quoting Lejarde-Rada,
319 F.3d at 1291). The district court did not plainly err.

IV. CONCLUSION

Moncrieffe v. Holder, 569 U.S.

184, 133 S.Ct. 1678, 185 L.Ed.2d 727; Descamps v. United
States, 570 U.S. 254, 133 S.Ct. 2276, 186 L.Ed.2d 438 (2013);
and
Mathis v. United States, ––– U.S. ––––, 136 S. Ct.
2243, 195 L.Ed.2d 604 (2016)—have undermined it. We have
rejected most of Jones's arguments already. United States v.
Golden, 854 F.3d 1256, 1256–57 (11th Cir. 2017). And even if
the arguments we have not already rejected were to convince
End of Document

us the district court erred, any error is by no means obvious.

We AFFIRM Jones's and Innocent's convictions and
AFFIRM Jones's sentence.
All Citations
977 F.3d 1077, 28 Fla. L. Weekly Fed. C 1986

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

